       Inspector General
4759544759




             SUMMARY OF AUDIT AND INVESTIGATIVE FINDINGS:

                           EDUCATION PROGRAMS OF THE

             U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

                                   (FISCAL YEARS 2002–8)




                Photograph of a third grade accelerated learning class in Kabul, Afghanistan.




                                          November 2008
CONTENTS

 Introduction…………………………………………………………………..                 1

 Review of Audits and Investigations………………………………………….    1

   Significant Audit Findings…………………………………………………         2

   Significant Investigative Activity………………………………………….   4

 Conclusion and Areas for Examination……………………………………...   5
INTRODUCTION

       Each year, the U.S. Agency for International Development (USAID) spends
approximately $500 million implementing its education strategy, which complements
other foreign assistance programs worldwide. More than $300 million of this sum is
devoted to basic education programs, which make up the cornerstone of this effort. At
the same time, the Agency works to develop partnerships with governments, individual
businesses, foundations, and organizations, colleges and universities, the faith
community, and others to help fund these programs.

         In its education strategy statement (“Education Strategy: Improving Lives
Through Learning,” April 2005), the Agency has made a commitment to improve and
expand education programs. Goals of the strategy are to promote economic growth,
reduce poverty, address inequities in income distribution, enhance revenues for income
tax (which then can be reinvested in communities), improve lives of women and girls,
and strengthen good governance and civil society. The strategy statement also notes
USAID’s desire to achieve the greatest impact possible through educational programs,
with the recognition that these activities are potentially vulnerable to waste and
inefficiency.

       To assist implementers of USAID programs, the Office of Inspector General
(OIG) is providing this summary report to share issues it has identified in its oversight of
education programs.

        This report contains examples of each of these issues, along with suggestions to
improve the implementation of future education programs. OIG hopes that the report
will benefit program implementers and looks forward to working with USAID to
strengthen its education programs.



REVIEW OF AUDITS AND INVESTIGATIONS

         During fiscal years 2002 through 2008, OIG conducted nine audits and one
significant investigation of USAID programs involving education activities. The following
sections summarize the findings of those audits and the pertinent investigative
information.

       This review found several issues that should be addressed in future education
programs: (1) performance monitoring and oversight, (2) quality of data, (3) availability
and use of technology, and (4) efficiency of operations.




                                                                                            1
Significant Audit Findings

         Performance monitoring and oversight. Performance monitoring and
oversight are important facets of program management. Missions should conduct site
visits periodically, work with contractors to develop appropriate targets for output
measures, and document the progress of their programs through accurate data
collection and recordkeeping. Periodic site visits help to keep progress on track and
discourage potential fraudulent activities. In five of the nine audits listed in this report,
problems were encountered with monitoring and oversight.

        For example, an audit conducted in Pakistan in 2008 could not determine
whether the local Education Sector Reform Assistance Program had achieved its
intended results because the audit team could not rely on the mission’s monitoring of
the program or on the contractor’s reporting of the program’s achievements against the
targets. The mission did not document its approval of the contractor’s monitoring and
evaluation plans and work plans, oversee the program adequately through site visits, or
maintain sufficient work files. Moreover, the mission did not follow up after program
evaluations had been conducted, nor did it require the contractor to adhere to
reporting requirements critical to monitoring the program performance. Therefore, the
audit team could not make an independent assessment of the overall program results
and impact.

       Quality of data. The quality of data was also noted as a concern in five of the
nine audits. We recognize that obtaining accurate data can be challenging in certain
environments, but it is critical to assessing program success. In several instances,
auditors were unable to determine whether programs had achieved results because data
were missing or inappropriately tabulated. Poor data quality appears to be a systemic
problem affecting various USAID program areas, including education.

        An example comes from the 2005 audit conducted in Egypt. Even though
USAID/Egypt had met or exceeded targets for its basic education performance
indicators, errors were found in three of the four reported results selected for testing.
In addition, one reported target was inaccurate (the target that USAID reported
differed from the target in the performance plan). OIG recommended that the mission
revise its performance management plan and its subsequent annual report to correct
the errors.

       Availability and use of technology. In its education strategy statement,
USAID notes the importance of building institutional capacity, which includes the use of
modern technology and, in particular, educational management information systems. In
an audit conducted in Iraq in 2005, OIG recommended that appropriate computer
equipment be installed at the Ministry of Education to support an educational
management information system. Although the mission had developed a plan for the
required equipment to be in place by February 2006, as of October 2006 the equipment
had not been installed. The mission stated that the servers were delayed in the process
of customs clearance. USAID will need to address similar challenges in the availability


                                                                                                2
and use of technology in order to improve data collection and to provide learning
opportunities for students.

         Efficiency of operations. USAID’s education strategy seeks to make the most
efficient use of available resources, avoiding waste and duplication whenever possible.
The report of a 2008 audit conducted in Yemen cites management inefficiencies, such as
multiple management layers and ineffective communication, that hindered the
achievement of results. As part of the management oversight process, program
implementers should examine initiatives periodically for opportunities to streamline
operations.

        The table below describes the types of findings noted by OIG in its audits.

List of Audit Reports, Fiscal Years 2002–8

Mission/Report         Description of Findings                                 Types of Findings

USAID/Pakistan         The mission did not provide adequate oversight for      Site visits
5-391-08-004-P         the program.
(March 28, 2008)       The audit team could not rely on the contractor’s       Quality of data
                       reporting of program achievements.
                       The mission did not document approval of substantive    Oversight
                       program changes and corresponding budgets.
                       The mission did not follow up appropriately after       Performance
                       program evaluations.                                    monitoring

                                                                               Corrective action not
                                                                               taken
USAID/Yemen            The mission did not assess implementers’ progress       Performance
6-279-08-003-P         toward achieving program objectives and was not         monitoring
(February 10, 2008)    substantially involved with the monitoring and
                       evaluation plans.
                       Cooperative agreements with the contractors             Efficiency of
                       produced management inefficiencies and costs to the     operations
                       mission (e.g., multiple management layers and
                       ineffective communication hindered the achievement
                       of results).
                       No consistent set of indicators existed to measure      Performance
                       performance.                                            monitoring
USAID/Iraq             Approximately one-third of performance measures         Quality of data
E-267-07-003-P         did not have adequate supporting documentation to
(February 4, 2007)     verify reported outputs.
                       Computer equipment and an education management          Availability and use of
                       information system had not been installed as            technology
                       recommended in the prior audit.
USAID/Iraq             The Ministry of Education lacked appropriate            Availability and use of
E-267-06-001-P         computer equipment to operate an education              technology
(December 20, 2005)    management information system being developed by
                       the contractor.
USAID/Afghanistan      Seven out of ten activities achieved their planned      Performance targets
5-306-05-005-P         outputs. In the three that did not, (1) textbook
(April 14, 2005)       distribution was delayed, (2) accelerated classes did



                                                                                                     3
Mission/Report         Description of Findings                                 Types of Findings

                       not start on time, and (3) targets for female student
                       enrollment were not achieved.
USAID/Egypt            Reporting errors were found in three out of four        Quality of data
6-263-05-002-P         results selected for testing, and one reported target
(March 31, 2005)       was inaccurate (the reported target differed from the   Performance
                       performance plan).                                      monitoring
USAID/Iraq             USAID complied with Federal regulations and             Compliance with
A-000-04-004-P         awarded phase II of the basic education phase in Iraq   regulations
(September 23, 2004)   under full and open competition.
USAID/Iraq             USAID did not accurately report data and results for    Quality of data
E-266-04-001-P         its education activities; seven out of eight items
(March 19, 2004)       reported were different from the amounts verified by
                       the audit.
USAID/Benin            A contractor did not consistently report required and   Quality of data
7-680-02-005-P         agreed-upon information on program performance.
(September 13, 2002)   The contractor reported on 43 percent of the            Performance
                       targeted measures.                                      monitoring
                       Another contractor did not prepare or submit timely     Performance
                       quarterly performance reports (one report had not       monitoring
                       been submitted in more than 1 year).
                       The mission had made informal commitments totaling      Informal commitments
                       $334,000. Funds were spent although the mission had
                       not executed a “miscellaneous commitment
                       document” as required by USAID policy. The mission
                       had taken steps to correct the problem before the
                       audit took place.



Significant Investigative Activity

       OIG is committed to investigating allegations of waste, fraud, and abuse within
USAID programs. One significant investigation, which took place in Bulgaria in 2007,
revealed almost $40,000 of fraudulent charges by a high-ranking faculty member of a
university receiving funding from USAID and other sources. The funding was intended
to help the school achieve financial stability to support its educational program.

         The funding was provided under the American Universities and Hospitals Abroad
program, which is meant to provide foreign nationals with the benefits of American
ideas and practices in education and medicine; serve as demonstration and study centers
that foster interchange, mutual understanding, and favorable relations with the
United States; and promote civil societies. The OIG investigation found that not only
did the program not track U.S. Government funds, but the subject of the investigation
also used part of the funding to purchase food, entertainment, and business-class airfare.
A bill for collection has been issued to the university.




                                                                                                   4
CONCLUSION AND AREAS FOR EXAMINATION
        OIG recognizes the importance of USAID education programs and their
contributions to strengthening economies and improving the lives of people in
developing nations. It also commends USAID for the steps it has taken to improve data
collection systems to enable educators, stakeholders, and donors to better assess
education needs and develop appropriate policies and strategies. Access to accurate,
meaningful performance data is crucial to the success of these programs, as is
consistent, regular oversight of programs.

      In summary, OIG suggests that the Agency take the following actions when
implementing new education initiatives:

   1. Conduct random site visits periodically to ensure that programs are being
      carried out as intended.

   2. Monitor performance reports regularly and take steps to verify the accuracy of
      performance data received from implementing partners.

   3. Work closely with contractors to ensure that program implementation plans are
      viable and that USAID approval is obtained prior to any program modifications.

   4. Identify ways to increase efficiency, whether through using technology or
      streamlining management and administrative processes.

        These suggestions describe just a few areas that USAID might examine in the
implementation of its education programs. Although the findings summarized in this report
are not unique to USAID education programs, OIG believes it is valuable to bring these
issues to the attention of program implementers, particularly in light of the substantial
funding devoted to these initiatives. OIG looks forward to working with USAID in its
oversight of worldwide education programs.




                                                                                            5
